TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        An Appropriate Methodology Has
                       Been Developed for Conducting the
                       National Research Program Study to
                       Measure the Voluntary Compliance
                         of Individual Income Taxpayers



                                           June 17, 2009

                              Reference Number: 2009-30-086




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  June 17, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                DIRECTOR, OFFICE OF RESEARCH, ANALYSIS, AND
                STATISTICS

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – An Appropriate Methodology Has Been
                               Developed for Conducting the National Research Program Study to
                               Measure the Voluntary Compliance of Individual Income Taxpayers
                               (Audit # 200830047)

 This report presents the results of our review to determine the adequacy of the methodology for
 conducting the National Research Program (NRP)1 – Individual Reporting Compliance Study
 (hereafter referred to as the NRP study or the study). This audit was conducted as part of the
 Treasury Inspector General for Tax Administration’s Fiscal Year 2009 Annual Audit Plan under
 the major management challenge of Tax Compliance Initiatives.

 Impact on the Taxpayer
 The Internal Revenue Service (IRS) is conducting a multiyear NRP study to measure the
 voluntary compliance of individual income taxpayers. IRS management developed an
 appropriate methodology for conducting the study and took proper steps to ensure that the study
 provides quality and accurate results. Because the NRP study results will be used to help
 identify tax returns that have a higher likelihood of noncompliance, the IRS can direct resources
 to where they provide the most value, which will reduce the burden on compliant taxpayers.




 1
  The NRP is responsible for determining filing, payment, and reporting compliance by taxpayers for different types
 of taxes.
                        An Appropriate Methodology Has Been Developed for
                     Conducting the National Research Program Study to Measure
                      the Voluntary Compliance of Individual Income Taxpayers




Synopsis
The IRS selects tax returns for audit based on data obtained from an NRP study of taxpayers that
filed a Tax Year (TY) 2001 U.S. Individual Income Tax Return (Form 1040). To update its
compliance information, the IRS initiated a new NRP study of individual income taxpayers. The
new study was designed to use annual random samples2 of about 13,200 returns. Examinations
began in October 2007 and were comprised of TY 2006 returns, which was the first tax year of
the study. Other tax years will follow and when data from the third year of the study (TY 2008)
are ready for analysis, the resulting estimates should have a statistical precision that is
comparable to that of the TY 2001 study. After the first 3 years, the IRS plans to continue
conducting examinations under the NRP study, which should allow for annual updates of
compliance information.
We determined that the methodology of the NRP study sampling plan was appropriate. Our
review verified that the sample size was sufficient to measure the statistical reliability of results,
the related calculations were accurate and consistent, and the formulas were appropriate. We
also determined that the sampling process was generally carried out as planned during the first
year of the study.
To ensure the quality and accuracy of results, management instituted a multilayered quality
review process, procedures for manual and systemic checks for data accuracy, and an effective
process for training employees. While there are requirements for quality reviews at the field
office and Area Office3 levels, there are no requirements for quality reviews to be conducted at
the national level. After NRP study examination procedures had been established, management
determined that the quality review process would be improved by involving personnel at the
national level. As a result, national level analysts conducted Program visitations the first year of
the study and will participate in reviews with each of the Area Office NRP study quality review
teams during the second year of the study. However, without continued national involvement in
the quality review process, the IRS’ ability to provide proper oversight and ensure consistency
and quality could be negatively affected.

Recommendation
We recommended that the Director, Examination, Small Business/Self-Employed Division,
include a provision in the Internal Revenue Manual requiring Small Business/ Self-Employed



2
  The samples are intended to be representative of the individual taxpayer populations.
3
  An Area Office is a geographic organizational level used by IRS business units and offices to help their specific
types of taxpayers understand and comply with tax laws and issues.
                                                                                                                      2
                   An Appropriate Methodology Has Been Developed for
                Conducting the National Research Program Study to Measure
                 the Voluntary Compliance of Individual Income Taxpayers



Division Examination Headquarters and NRP staff to provide oversight of NRP reviews
conducted by Area Offices.

Response
IRS management agreed with our recommendation. The Internal Revenue Manual for NRP
Individual Income Tax Reporting Compliance Studies is currently being updated and a provision
requiring Small Business/Self-Employed Division Headquarters and NRP staff to provide
oversight of NRP exam reviews is being added. Management’s complete response to the draft
report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                            3
                          An Appropriate Methodology Has Been Developed for
                       Conducting the National Research Program Study to Measure
                        the Voluntary Compliance of Individual Income Taxpayers




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The National Research Program Study Sampling Process
          Was Appropriate ...........................................................................................Page 3
          Management Implemented Several Procedures to Ensure That
          the Study Provided Quality and Accurate Results........................................Page 4
                    Recommendation 1:..........................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Management’s Response to the Draft Report ......................Page 12
         An Appropriate Methodology Has Been Developed for
      Conducting the National Research Program Study to Measure
       the Voluntary Compliance of Individual Income Taxpayers




                    Abbreviations

IRS           Internal Revenue Service
NRP           National Research Program
TY            Tax Year
                       An Appropriate Methodology Has Been Developed for
                    Conducting the National Research Program Study to Measure
                     the Voluntary Compliance of Individual Income Taxpayers




                                            Background

One of the Internal Revenue Service’s (IRS) strategic goals is to get taxpayers to meet their tax
obligations with as little intervention as possible. To achieve its goal, the IRS depends on
voluntary compliance, which is a system of compliance that relies on individual citizens to report
their income freely and voluntarily, calculate their tax liability correctly, and file a tax return on
time. There are three primary measures of voluntary compliance:
    •   Filing compliance – the percentage of taxpayers with a filing requirement who file
        returns on time.
    •   Payment compliance – the percentage of tax reported on timely filed returns that is paid
        on time.
    •   Reporting compliance – the accuracy of tax reported on time.
In order to make decisions about its customer service and enforcement plans, it is important that
the IRS have information about voluntary tax compliance. In Fiscal Year 2000, the IRS
established the National Research Program (NRP)1 Office and charged it with gathering
voluntary compliance data to help guide the IRS’ strategic plans. The NRP Office separately
collects information on filing, payment, and reporting compliance. When these measures are
considered individually and collectively, they provide the IRS with statistical information that it
uses to make decisions about its customer service and enforcement strategies.
The NRP Office completed its first reporting compliance study of taxpayers that file a
U.S. Individual Income Tax Return (Form 1040) using information from Tax Year (TY) 2001.
The results of this study were used to help the IRS estimate the tax gap, which is the difference
between the total taxes that taxpayers should have paid and the total taxes that were actually paid
timely. The IRS estimated the gross tax gap at approximately $345 billion. Within the gross tax
gap, late filing and nonfiling of tax returns accounted for about $27 billion and underpayment of
reported taxes accounted for approximately $34 billion. The remaining approximately
$284 billion was due to improper reporting, and the vast majority of that improper reporting
came from individual taxpayers.
The IRS selects tax returns for audit based on the data obtained from the TY 2001 NRP study.
Although the TY 2001 NRP study provided valuable information, the TY 2001 data used in the
study are not current and the areas of noncompliance identified in the study may have changed.
As these data become more outdated, there is an increased risk that the IRS does not have


1
 The NRP is responsible for determining filing, payment, and reporting compliance by taxpayers for different types
of taxes.
                                                                                                          Page 1
                    An Appropriate Methodology Has Been Developed for
                 Conducting the National Research Program Study to Measure
                  the Voluntary Compliance of Individual Income Taxpayers



accurate information about taxpayer voluntary compliance and its limited resources are not
directed where they could be most productive. The TY 2001 NRP study included a sample of
about 46,000 tax returns and strained the IRS’ examination plan for that year. However, these
limited resources are also necessary for conducting the type of studies needed to collect
voluntary compliance data.
Recognizing the need for more current information and balancing that need with performing its
annual examination plan with minimal disruption, the NRP Office initiated a new Individual
Reporting Compliance Study (hereafter referred to as the NRP study or the study), beginning on
October 1, 2007. This new study lessens the impact on the annual examination plan because it
spreads out the returns sampled over multiple tax years, which reduces the annual burden
compared to the TY 2001 study. The new study also calls for collecting data every year for the
foreseeable future, which should allow the information to be more current and updated regularly.
The current NRP study was designed to use annual random samples of about 13,200 U.S.
Individual Income Tax Returns (Form 1040). The samples are intended to be representative of
the individual taxpayer populations. The examinations began on October 1, 2007, and were
comprised of TY 2006 returns, which was the first tax year of the study. Other tax years are to
follow and when data from the third year of the study (TY 2008) are ready for analysis, the
resulting estimates should have a statistical precision that is comparable to that of the TY 2001
study. The merging of multiple tax years will allow researchers to look at line-item detail not
available in previous compliance studies. A major benefit of this shift is the ability to update
compliance estimates and workload identification models annually after collecting the TY 2008
data.
This review was performed at the Office of Research, Analysis, and Statistics in
Washington, D.C., and the Small Business/Self-Employed Examination Division in
New Carrollton, Maryland, during the period July 2008 through February 2009. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                           Page 2
                        An Appropriate Methodology Has Been Developed for
                     Conducting the National Research Program Study to Measure
                      the Voluntary Compliance of Individual Income Taxpayers




                                      Results of Review

The National Research Program Study Sampling Process Was
Appropriate
The NRP study sampling plan, which will be implemented over 3 tax years, is designed to
achieve three objectives:
    •    Provide an estimate of reporting compliance.
    •    Support the updating of formulas for examination workload selection.
    •    Produce annual estimates of reporting compliance for taxpayers that claim the Earned
         Income Tax Credit.2
IRS statisticians used a 95 percent confidence interval and a precision of ± one-half of 1 percent
to calculate a sample size that would allow for an estimate of the voluntary reporting rate.3
While this calculation provided a sample size necessary to estimate the voluntary reporting rate,
it did not provide a sufficient number of cases required to address the workload formulas
objective. To update the workload formulas, the IRS has learned from experience that the
sample design must provide a sufficient number of returns that can be defined as profitable to
audit.4 In allocating the sample related to the workload formulas objective, the IRS ensured that
the sample also met the reporting compliance objective by applying a factor to reflect each
substratum’s5 contribution to the tax gap.
The IRS then calculated a separate sample of returns that will also be spread across 3 tax years to
produce estimates of Earned Income Tax Credit compliance by using a 95 percent confidence
interval and a precision of ± 2 percent. One third of the sample size that met this requirement is
also sufficient to produce annual estimates of Earned Income Tax Credit compliance based on a
90 percent confidence interval and a precision of ± 3 percent.




2
  The Earned Income Tax Credit is a tax credit for certain people who work and have income under established
limits.
3
  The voluntary reporting rate is used for estimating reporting compliance and represents the total tax liability
reported on timely filed returns in proportion to the total tax liability that should have been reported.
4
  A return is defined as being profitable to audit when the amount of the tax change exceeds the cost of conducting
an examination at a level designated by the IRS for the purposes of the NRP study.
5
  Strata are derived from the division of the population into two or more segments. Substrata are derived from
further division of the strata.
                                                                                                             Page 3
                    An Appropriate Methodology Has Been Developed for
                 Conducting the National Research Program Study to Measure
                  the Voluntary Compliance of Individual Income Taxpayers



The IRS calculated a total sample size of 39,442 returns that would be necessary to address all
3 objectives of the sampling plan. The sample will be spread uniformly, by substrata, across
3 tax years. The sample was stratified across 58 strata; 11 primary strata, 10 of which are further
separated into substrata. The primary stratification was based on the examination classes used in
examination workload selection. Examination classes represent groupings of taxpayers based on
various factors such as taxpayer income. Substratification was based on various additional
factors, such as taxpayer filing status.
In order to validate the sampling methodology, the IRS contracted with an outside research firm
to evaluate the sample design for the study. The research firm concluded that the sample design
would meet all the requirements it was created to satisfy, provided that the statistical
assumptions on which the design is based remain viable. It found that the choice and application
of statistical formulas were appropriate and verified the accuracy of the calculations. The firm
also reported that there were no inherent problems with using a multiyear approach.
We reviewed the IRS sampling plan and the research firm’s report and discussed the plan with
the IRS statistician who prepared it to determine the adequacy of the methodology for
conducting the study. We confirmed the accuracy and consistency of the calculations of the
sample size, both in total and at the substrata level. We also determined the sampling process
was generally carried out as planned during the first year of the study. To ensure the
methodology of the IRS sampling plan was appropriate, we consulted with an independent
statistician. The statistician confirmed that the IRS sample design, including the formulas used,
was appropriate for calculating the sample size and that the sample size was sufficient to
measure the statistical reliability of results. The statistician also confirmed that a multiyear
strategy is an acceptable approach for performing the study and that any risks related to this
approach could be addressed by making adjustments to the plan without affecting the validity of
results. After the third year of the study, based on the design of the sampling plan, the IRS
should be able to combine the results from each year to address the objectives of the study.

Management Implemented Several Procedures to Ensure That the
Study Provided Quality and Accurate Results
The validity of the NRP study is dependent upon having reliable information. We determined
that management implemented effective processes for 1) measuring quality and providing
oversight, 2) determining the accuracy of results, and 3) training employees.

Management developed a comprehensive quality review plan that could be
improved with continued national level involvement
The quality review process is important because it provides a method to monitor, measure, and
improve the quality of work. In addition, quality review results enable management to identify
trends, problem areas, training needs, and opportunities for process improvement. For the first

                                                                                            Page 4
                        An Appropriate Methodology Has Been Developed for
                     Conducting the National Research Program Study to Measure
                      the Voluntary Compliance of Individual Income Taxpayers



year of the NRP study, we noted that quality reviews were conducted at the field office, Area
Office,6 and national office levels as follows:
    •    NRP study coordinators were responsible for determining the quality of case building by
         verifying that case files were complete.
    •    NRP study coordinators were also responsible for reviewing all classified NRP study
         returns until they were satisfied with the quality and consistency of each classifier.
         Thereafter, they reviewed a 10 percent sample of the cases for each classifier.
    •    Group managers were required to complete an evaluative case review on the first NRP
         study case assigned to each examiner within 60 calendar days of assignment.
    •    Group managers were also required to complete a nonevaluative case review on all NRP
         study closed cases, which considers various quality attributes and data-gathering items.
    •    NRP study quality review teams from each Area Office are required to conduct
         nonevaluative quality reviews on a sample of cases during each year of the study.
    •    Management from the Small Business/Self-Employed Division established a visitation
         team to conduct quality reviews on a sample of cases during the first year of the study.
         The visitation team specifically looked at the quality process and the overall quality of
         the cases to ensure that guidelines were being met.
While the quality review process was appropriate, there are no requirements for quality reviews
to be conducted at the national level. After NRP study examination procedures had been
established, management determined national involvement in the quality review process would
assist in the overall quality initiative. During the second year of the study, the visitation team
will participate with the Area Office quality review teams. This effort was only made possible
when IRS management approved a proposal submitted by analysts from the visitation team. We
agree with the analysts’ opinion that involvement at the national level is necessary for providing
proper oversight and ensuring consistency and quality. Also, the analysts indicated that
continued direct involvement in the quality review process at the national level was dependent
upon the IRS budget for the NRP study. However, without continued national involvement in
the quality review process, the IRS’ ability to provide proper oversight and ensure consistency
and quality could be negatively affected.




6
  An Area Office is a geographic organizational level used by IRS business units and offices to help their specific
types of taxpayers understand and comply with tax laws and issues.
                                                                                                              Page 5
                      An Appropriate Methodology Has Been Developed for
                   Conducting the National Research Program Study to Measure
                    the Voluntary Compliance of Individual Income Taxpayers



Steps were taken to ensure results were accurately captured and tracked to
address NRP objectives
Accuracy in the reporting of NRP study examination results is extremely important to enable
proper decisions to be reached upon analysis of each study’s output. Management established
the following procedures to ensure that examination results are accurately captured and tracked
to properly address the objectives of the NRP study:
    •   Examiners input results into an electronic case file. Completed records are uploaded to
        the group manager, who reviews each closed case for data accuracy and forwards the
        records to the NRP study coordinator.
    •   NRP study coordinators complete a procedural review of the case and transmit closed
        case information to the Detroit Computing Center,7 where the data are run through a
        program that tests for consistency errors. For tests that fail, NRP study coordinators must
        verify the accuracy of the questioned data and transmit any necessary corrections. This
        process will repeat until the data pass all consistency tests.
    •   NRP study analysts conduct reviews of the data maintained at the Detroit Computing
        Center to identify anomalies and apply appropriate corrections.
    •   Examination Automation Team analysts review a sample of closed case files for data
        consistency and accuracy. The analysts coordinate their reviews with the Area Office
        NRP study quality review teams to coincide with the annual reviews conducted at each
        Area Office.

The process for training employees was effective
Training for employees working on the NRP study was provided in a manner that enabled them
to complete the training just prior to beginning their assigned responsibilities. Specifically,
    •   Case builders were instructed on the use of a checksheet which identified all the items
        and information that must be added to each case file. Due to the straight forward nature
        of case building, no formal classroom training was necessary.
    •   Technically proficient and experienced revenue agents and tax compliance officers were
        selected by each Area Office to serve as NRP study classifiers. Classification sessions,
        which were held in the same location where cases were built, were scheduled to coincide
        with the availability of inventory. At each session, classifiers were required to complete
        classroom training before they were assigned an inventory. For consistency purposes,



7
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                      Page 6
                    An Appropriate Methodology Has Been Developed for
                 Conducting the National Research Program Study to Measure
                  the Voluntary Compliance of Individual Income Taxpayers



       classification work is quality reviewed during each session and findings are shared with
       the classifiers.
   •   Management required cases to only be assigned to examiners who completed all
       applicable training modules. Rather than have examiners attend classroom training and
       wait months to receive their first case, training was made available through a web-based
       application. This enabled examiners to take the training just prior to receiving cases,
       which management believed would result in better quality.

Recommendation
Recommendation 1: The Director, Examination, Small Business/Self-Employed Division,
should include a provision in the Internal Revenue Manual requiring Small Business/
Self-Employed Division Examination Headquarters and NRP staff to provide oversight of NRP
reviews conducted by Area Offices.
       Management’s Response: IRS management agreed with this recommendation. The
       Internal Revenue Manual for NRP Individual Income Tax Reporting Compliance Studies
       is currently being updated and a provision requiring Small Business/Self-Employed
       Division Headquarters and NRP staff to provide oversight of NRP exam reviews is being
       added.




                                                                                          Page 7
                    An Appropriate Methodology Has Been Developed for
                 Conducting the National Research Program Study to Measure
                  the Voluntary Compliance of Individual Income Taxpayers



                                                                                     Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the adequacy of the methodology for
conducting the NRP – Individual Reporting Compliance Study (hereafter referred to as the
study). To accomplish the objective, we:
I.     Evaluated the validity of the sampling process.
       A. Identified the criteria used to select the sample, as well as the basis for establishing
          the criteria.
       B. Determined how the sample size was calculated and whether the sample size was
          sufficient to measure the statistical reliability of results.
       C. Determined whether the sampling process was carried out as planned during the first
          year of the study.
       D. Identified the risks of implementing a sampling strategy over a multiyear period and
          determined how management accounted for the risks.
II.    Evaluated the effectiveness of the quality review process.
       A. Identified and evaluated the process for reviewing the quality of case building.
       B. Identified and evaluated the process for reviewing the quality of classification.
       C. Identified and evaluated the process for reviewing the quality of examinations.
       D. Identified and evaluated the process for ensuring quality reviews were appropriately
          conducted.
III.   Evaluated the appropriateness of the methodology for collecting and using results.
       A. Determined how results were being controlled and tracked over the 3-year period.
       B. Identified and evaluated the process for ensuring examination results were accurately
          captured.
       C. Identified the objectives of the study.
IV.    Evaluated the effectiveness of the training process.
       A. Identified and evaluated the process for selecting classifiers.
       B. Identified and evaluated the process for training case builders, classifiers, and
          examiners.
                                                                                              Page 8
             An Appropriate Methodology Has Been Developed for
          Conducting the National Research Program Study to Measure
           the Voluntary Compliance of Individual Income Taxpayers



C. Identified and evaluated the process for assigning cases for case building,
   classification, and examination.




                                                                                 Page 9
                   An Appropriate Methodology Has Been Developed for
                Conducting the National Research Program Study to Measure
                 the Voluntary Compliance of Individual Income Taxpayers



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Amy L. Coleman, Audit Manager
Todd M. Anderson, Lead Auditor
Janis Zuika, Senior Auditor
Niurka M. Thomas, Auditor




                                                                                      Page 10
                   An Appropriate Methodology Has Been Developed for
                Conducting the National Research Program Study to Measure
                 the Voluntary Compliance of Individual Income Taxpayers



                                                                      Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, National Research Program RAS:NRP
Director, Office of Program Evaluation and Risk Analysis RAS:O
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Director, Office of Research, Analysis, and Statistics RAS




                                                                            Page 11
       An Appropriate Methodology Has Been Developed for
    Conducting the National Research Program Study to Measure
     the Voluntary Compliance of Individual Income Taxpayers



                                                  Appendix IV

Management’s Response to the Draft Report




                                                         Page 12
   An Appropriate Methodology Has Been Developed for
Conducting the National Research Program Study to Measure
 the Voluntary Compliance of Individual Income Taxpayers




                                                     Page 13
